This Agreement and Disclosure supersedes any benefit and description
you may have received earlier. Please read and retain for your records.

Your TruWest® Credit Union Visa® Card
Supplemental Visa Agreement & Disclosure
Platinum Points Visa Cards - Effective 10/15/2018
For questions about your balance, call the customer
service number on your Visa statement.

1. BALANCES ON WHICH FINANCE CHARGES
(INTEREST) ARE COMPUTED:
Principal balances of Purchases, Cash Advances and
Balance Transfers are determined each day during the
statement period, beginning with the principal portion
of your Previous Balances, reduced by payments you
make and credits we apply during the statement period,
and increased by Purchases, Cash Advances and
Balance Transfers you make, and debit adjustments we
make during the statement period. The Finance Charges
for a billing cycle are computed by applying the Periodic
Rate to the “average daily balance” of purchases (and
if applicable, cash advances). To get the average daily
balance, we take the beginning balance of your account
each day, add any new purchases, cash advances and
balance transfers, and subtract any payments, credits,
non-accruing fees, and unpaid finance charges. This
gives us the daily balance. Then we add up all the daily
balances for the billing cycle and divide the total by
the number of days in the billing cycle. All Automated
Teller Machine (ATM) transactions, Credit Card Checks,
Overdraft Protection Advances and Cash Advances
with the Card(s) (however made, including online) are
considered Cash Advances.
2. CASH ADVANCES:
Cash Advances on the account that do not exceed
the account’s Cash Limit may be obtained by the
Cardholder. We will advise you of your cash advance
limit in writing and it will become part of this agreement
by reference. FINANCE CHARGES will accrue on all
Cash Advances from the date the advance is made on
the Cardholder’s account until the Cash Advance is
paid in full.
3. BALANCE TRANSFERS:
Balance Transfers on the account that do not exceed
the account’s Credit Limit may be obtained by the
Cardholder. We will advise you of your credit limit in
writing and it will become part of this agreement by
reference. FINANCE CHARGES will accrue on all
Balance Transfers from the date the transfer is made on
the Cardholder’s account until the Transfer is paid in full.

4. VARIABLE RATE CALCULATION:
Purchase Rate
We calculate your variable purchase rate by adding
between 4.65% and 5.65% (“margin”) to the Prime rate
published in the “Money Rates” section of The Wall
Street Journal (“Index”) on the first day of January, April,
July and October. If the Journal is not published on
that day, then see the immediately preceding edition. If
Prime changes, your new rate will take effect on the first
day of February, May, August and November.
Cash Advance Rate
We calculate your variable cash advance rate by adding
between 12.65% and 13.65% (“margin”) to the Prime
rate published in the “Money Rates” section of The Wall
Street Journal (“Index”) on the first day of January, April,
July and October. If the Journal is not published on
that day, then see the immediately preceding edition. If
Prime changes, your new rate will take effect on the first
day of February, May, August and November.
Balance Transfer Rate
We calculate your variable balance transfer rate by
adding between 4.65% and 5.65% (“margin”) to the
Prime rate published in the “Money Rates” section
of The Wall Street Journal (“Index’) on the first day
of January, April, July and October. If the Journal is
not published on that day, then see the immediately
preceding edition. If Prime changes, your new rate will
take effect on the first day of February, May, August
and November.
5. FINANCE CHARGES:
The FINANCE CHARGE is the amount of money that
you pay for the money you borrow. You can avoid
FINANCE CHARGES (interest) on your New Purchases
balance by paying the entire account balance (shown
as the Total New Balance) by the Account Statement’s
“Payment Due” date. FINANCE CHARGES on New
Purchase and Balance Transfer balances are calculated
at the periodic rate between 0.80417% and 1.38750%,
which corresponds to an ANNUAL PERCENTAGE RATE
between 9.90% and 16.90%. FINANCE CHARGES on the
average daily balances of Cash Advances are calculated
at the periodic rate between 1.47083% and 1.64583% per
month, which corresponds to an ANNUAL PERCENTAGE
RATE between 17.90% and 19.90%.
6. MONTHLY PAYMENT:
We will mail you a statement each month when
transactions or an owing balance appears on your
account. The statement will show your Previous Balances
of Purchases, the current transactions on your account,
the remaining credit available under your Credit Line, the

New Balance of purchases, the Total New Balance, the
FINANCE CHARGES due date, any other billed fees,
and the Minimum Payment required. If you signed up
to receive your statements electronically (e-statement),
we will send you an electronic notification when your
statement is ready for you to view. You must pay at least
the Minimum Payment required by the Payment Due
Date noted on your statement. The Minimum Payment
will be either (a) 2.5% of your Total New Balance,
or $25, whichever is greater, or (b) your Total New
Balance, if it is less than $25 plus (c) any portion of the
Minimum Payment(s) shown on prior statement(s) which
remains unpaid. At any time your Total New Balance
exceeds your Credit Limit, you must immediately pay
the excess upon our demand. You may pay more
frequently, pay more than the Minimum Payment or
pay the Total New Balance in full before the “Payment
Due” date. You will avoid FINANCE CHARGES on
New Purchases if you pay the Total New Balance in full
before the “Payment Due” date. All mailed payments
must be made by check or money order. You agree that
any payment you make may be returned to you without
applying it to your Account and without presentment
or protest, for any reason, including if the check or
money order is (1) not drawn on the U.S. Post Office or
a financial institution located in the United States; (2)
missing a signature; (3) restrictively endorsed; (4) post
dated; (5) not payable to TruWest Credit Union; (6) not
drawn in U.S. dollars on funds on deposit in the U.S.;
or (7) not paid upon presentment. You agree to pay any
bank or financial institution collection fees we incur for
any check payments made in U.S. Dollars drawn on a
financial institution not located in the United States.
All payments under this Agreement must be received
at the address specified on your billing statement.
Disputed payments, including those marked “Payment
in Full” or otherwise restrictively endorsed must be
mailed to TruWest Credit Union, PO Box 78637,
Phoenix, AZ 85062-8637.
7. HOW WE ALLOCATE YOUR PAYMENTS:
For minimum periodic payments, the payment will be
allocated first to the balance with the lowest APR. For
payments in excess of the required minimum periodic
payment, the excess payment amount will be allocated
first to the balance with the highest APR and any
remaining portion to the other balances in descending
order based on the applicable annual percentage
rate. This will result in balances with higher APRs
(such as cash advances) being paid before any
other existing balances.

8. FEES:
ANNUAL FEES: NONE
CREDIT CARD CHECKS: NONE
TRANSACTION FEE: NONE
OVER LIMIT FEE: NONE
BALANCE TRANSFER FEE:
3% of each balance transfer
CASH ADVANCE FEE:
4% of the amount of each cash advance
OVERDRAFT PROTECTION ADVANCE:
$2.00 per advance
9. OTHER CHARGES:
Late Payment charge:
A late payment fee equal to your minimum payment
due, but no more than $25.00, will be charged to
your Visa account for each billing cycle that the
minimum payment due is received after the
“Payment Due Date”.
Statement copy charge:
The Credit Union will charge your Visa account $1.00
per page for each Visa statement copy you request.
Transaction Draft copy charge:
The Credit Union will charge your Visa account $0.50
for each original transaction draft you request.
Returned Item charge:
A returned item fee equal to your minimum payment
due, but no more than $25.00, will be charged to
your Visa account for each dishonored check or other
transfer processed by the Credit Union as payment on
your Visa account.
Replacement card(s) charge:
You will receive the first replacement card at no
charge. The Credit Union will charge your Visa
account $5.00 for each additional card requested.
Overnight mail charge:
If you request your replacement card be delivered by
overnight mail, the Credit Union will charge your Visa
account $25.00.
Priority mail charge:
If you request your replacement card be delivered by
priority mail, the Credit Union will charge your Visa
account $15.00.
10. TRUREWARDS POINT PROGRAM:
Every dollar of your net purchases on your account will
earn one reward point. Points begin to accumulate with
purchases made on the first day of use. Credit card

checks, balance transfers, and cash advances are not part
of the TruRewards program. Points can be redeemed for
gift cards, travel discounts, cash back, and merchandise.
For more information please call 888-995-1271. Point
requirements are subject to change from time to time and
gift cards, travel discounts, cash back, and merchandise
may be substituted at any time. Unused points, older than
48 months from the date they were issued, will expire
annually on December 31. Accounts must be open and
current at the time of any reward redemption. Contact
888-995-1271 or visit the TruRewards web site for a full
listing of program rules.
11. OVERDRAFT PROTECTION USING YOUR
TRUWEST CREDIT CARD:
Cardholders can select their TruWest credit card as an
option for Overdraft Protection. By selecting your credit
card as an Overdraft Protection option, the Credit Union
will automatically transfer from your TruWest credit card
account the exact amount needed, plus a $2 service
charge. Transfers will not be made if your credit card
account is over limit or contractually past due. A finance
charge will be assessed on the same basis as any other
credit card Cash Advance in accordance with the credit
card agreement. You authorize us to make an Overdraft
Protection advance from your card as provided in this
agreement. We may cancel Overdraft Protection in
our discretion, even if the card remains open for other
purposes. We may also change the terms and
conditions or eligibility of participating at any time.
12. SKIP PAY OPTION:
Eligible cardholders may have the ability to skip a credit
card payment. To qualify for a skip payment:
• the Credit Card account must be opened for at least six
months with a payment made each month;
• Savings or spending account must have enough funds
to cover any applicable fees;
• Your Credit Card may not be past due, have any 		
unpaid fees, or in default; and
• One Skip Payment is allowed per credit card per rolling
calendar year (12 months).
When you take advantage of the Skip Pay Option, the
interest will continue to accrue on the entire unpaid
balance of your Card.
The Skip Pay option is further subject to the Skip Pay
Program terms and conditions, which are incorporated
herein and as amended from time to time. We may
cancel, restrict, amend, or modify the skip pay option
or program at any time.

13. MILITARY LENDING ACT NOTICE:
Federal law provides important protections to members
of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include,
as applicable to the credit transaction or account: The
costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit
transaction; any application fee charged (other than
certain application fees for specified credit transactions or
accounts); and any participation fee charged (other
than certain participation fees for a credit card account).

TruWest® Credit Union

Federally Insured by NCUA
1667 N Priest Dr, Tempe, AZ 85281
1 (855) 878-9378

